IN THE SUPREME COURT OF THE UNITED STATES

No. 19-1284

MALWAREBYTES, INC.,
Petitioner,

ENIGMA SOFTWARE GROUP USA, LLC,
Respondent.

CORRECTED DECLARATION OF SERVICE

I, Mike McKenzie, hereby declare under penalty of perjury pursuant to
28 U.S.C. ยง 1746 and under the laws of the United States that the following is
true and correct:

Pursuant to Rule 29.5 of the Rules of this Court, all parties required to be
served have been served. On July 27, 2020, I caused three copies of the Brief in
Opposition for Respondent te be served by first-class mail, postage prepaid, on

those on the attached service list.

Dated: July 27, 2020

eo <

Mike McKenzie
ABP Printing
Neal Kumar Katyal

Hogan Lovells US LLP

555 18th Street, N.W.
Washington, D.C. 20004

(202) 637-5600

Counsel of Record for Petitioner

Phillip R. Malone

Juelsgaard Intellectual Property
and Innovation Clinic

Mills Legal Clinic at Stanford
Law School

559 Nathan Abbott Way

Stanford, California 94305

(650) 725-6369

Counsel of Record for Amici

Cybersecurity Experts

Sophia Cope

Electronic Frontier Foundation
815 Eddy Street

San Francisco, California 94109
(415) 436-9333

Counsel of Record for Amicus
Electronic Frontier Foundation

SERVICE LIST

Anna-Rose Mathieson

California Appellate Law Group LLP
96 Jessie Street

San Francisco, California 94105
(415) 649-6700

Counsel of Record for Amicus

ESET, LLC

Brian M. Willen
Wilson Sonsini Goodrich

& Rosati PC
1301 Avenue of the Americas
40th Floor
New York, New York 10019
Counsel of Record for Amicus
Internet Association

Jan Simmons

O'Melveny & Myers LLP
1625 Eye Street, N.W.
Washington, D.C. 20006
(202) 383-5300

Counsel of Record for Amicus
TechFreedom
